U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 29, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Archer v. United States, No. 20-1644
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 24, 2021.
The government’s response is now due, after one extension, on July 26, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 25, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1644
ARCHER, DEVON
USA

BRANDON L. ARNOLD
ROBBINS, RUSSELL, ENGLERT, ORSECK
UNTEREINER LLP
2000 K STREET, NW,
4TH FLOOR
WASHINGTON, DC 20006
202-471-3043
BARNOLD@ROBBINSRUSSELL.COM
MATTHEW LANE SCHWARTZ
BOIES, SCHILLER & FLEXNER LLP
55 HUDSON YARDS,
20TH FLOOR
NEW YORK, NY 10001
212-446-2300
MLSCHWARTZ@BSFLLP.COM

